U.S. Department of Justice
Office of the Inspector General




   Report to Congress on Implementation
   of Section 1001 of the USA PATRIOT Act
       (as required by Section 1001(3) of Public Law 107-56)




                                            February 2011
        Section 1001 of the USA PATRIOT Act (Patriot Act), Public Law 107-56,
directs the Office of the Inspector General (OIG) of the U.S. Department of
Justice (DOJ or Department) to undertake a series of actions related to claims
of civil rights or civil liberties violations allegedly committed by DOJ employees.
It also requires the OIG to provide semiannual reports to Congress on the
implementation of the OIG’s responsibilities under Section 1001. This report,
the eighteenth since enactment of the legislation in October 2001, summarizes
the OIG’s Section 1001-related activities from July1, 2010 through
December 31, 2010.

I. INTRODUCTION

      The OIG is an independent entity within the DOJ that reports to both the
Attorney General and Congress. The OIG’s mission is to investigate allegations
of waste, fraud, and abuse in DOJ programs and personnel and to promote
economy and efficiency in DOJ operations.

      The OIG has jurisdiction to review programs and personnel in all DOJ
components, including the Federal Bureau of Investigation (FBI), the Drug
Enforcement Administration (DEA), the Federal Bureau of Prisons (BOP), the
Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF), U.S. Marshals
Service (USMS), the U.S. Attorneys’ Offices, and other DOJ components. 1

       The OIG consists of the Immediate Office of the Inspector General and
the following divisions and offices:

       •   Audit Division is responsible for independent audits of Department
           programs, computer systems, and financial statements.

       •   Evaluation and Inspections Division conducts program and
           management reviews that involve on-site inspection, statistical
           analysis, and other techniques to review Department programs and
           activities and make recommendations for improvement.

       •   Investigations Division is responsible for investigating allegations of
           bribery, fraud, abuse, civil rights violations, and violations of other
           criminal laws and administrative procedures that govern Department
           employees, contractors, and grantees.

       •   Oversight and Review Division blends the skills of attorneys,
           investigators, and program analysts to investigate or review high


       1  The OIG has authority to investigate allegations of misconduct by any Department
employee, except for allegations of misconduct "involving Department attorneys, investigators,
or law enforcement personnel, where the allegations relate to the exercise of the authority of an
attorney to investigate, litigate, or provide legal advice . . . . " See 5 U.S.C. App. 3 § 8E(b)(3).


Office of the Inspector General, U.S. Department of Justice                             Page 1
          profile or sensitive matters involving Department programs or
          employees.

      •   Management and Planning Division provides planning, budget,
          finance, personnel, training, procurement, automated data
          processing, computer network communications, and general support
          services for the OIG.

      •   Office of General Counsel provides legal advice to OIG management
          and staff. In addition, the office drafts memoranda on issues of law;
          prepares administrative subpoenas; represents the OIG in personnel,
          contractual, and legal matters; and responds to Freedom of
          Information Act requests.

      The OIG has a staff of approximately 440 employees, about half of whom
are based in Washington, D.C., while the rest work from 16 Investigations
Division field and area offices and 6 Audit Division regional offices located
throughout the country.

II. SECTION 1001 OF THE PATRIOT ACT

      Section 1001 of the Patriot Act provides the following:

            The Inspector General of the Department of Justice shall
            designate one official who shall ―

             (1)   review information and receive complaints alleging abuses
                   of civil rights and civil liberties by employees and officials
                   of the Department of Justice;

             (2)   make public through the Internet, radio, television,
                   and newspaper advertisements information on the
                   responsibilities and functions of, and how to contact, the
                   official; and

             (3)   submit to the Committee on the Judiciary of the House
                   of Representatives and the Committee on the Judiciary of
                   the Senate on a semi-annual basis a report on the
                   implementation of this subsection and detailing any
                   abuses described in paragraph (1), including a description
                   of the use of funds appropriations used to carry out
                   this subsection.




Office of the Inspector General, U.S. Department of Justice                Page 2
III. CIVIL RIGHTS AND CIVIL LIBERTIES COMPLAINTS

       Review information and receive complaints alleging abuses of civil rights
       and civil liberties by employees and officials of the Department of Justice.

      The OIG’s Special Operations Branch in its Investigations Division
manages the OIG’s investigative responsibilities outlined in Section 1001. 2 The
Special Agent in Charge who directs this unit is assisted by two Assistant
Special Agents in Charge (ASAC), one ASAC assists on FBI matters, and a
second ASAC provides support on DEA and ATF cases. In addition, five
Investigative Specialists support the unit and divide their time between Section
1001 and FBI/DEA/ATF responsibilities.

      The Special Operations Branch receives civil rights and civil liberties
complaints via mail, e-mail, telephone, and facsimile. The complaints are
reviewed by Investigative Specialists who make recommendations to the Special
Agent in Charge regarding decisions concerning the dispositions. After review,
each complaint alleging a violation within the investigative jurisdiction of the
OIG or another federal agency is entered into an OIG database by an
Investigative Specialist. The more serious civil rights and civil liberties
allegations that relate to actions of DOJ employees or DOJ contractors
normally are assigned to an OIG Investigations Division field office, where OIG
special agents conduct investigations of criminal violations and administrative
misconduct. 3 Some complaints are assigned to the OIG’s Oversight and Review
Division for investigation.

       Given the number of complaints received compared to its limited
resources, the OIG does not investigate all allegations of misconduct against
DOJ employees. The OIG refers many complaints involving DOJ employees to
internal affairs offices in DOJ components such as the FBI Inspection Division,
the DEA Office of Professional Responsibility, and the BOP Office of Internal
Affairs. In certain referrals, the OIG requires the components to report the
results of their investigations to the OIG. In most cases, the OIG notifies the
complainant of the referral.

      Many complaints received by the OIG involve matters outside our
jurisdiction. The ones that identify a specific issue for investigation are
forwarded to the appropriate investigative entity. For example, complaints of

      2 This unit also is responsible for coordinating the OIG’s review of allegations of

misconduct by employees in the FBI, DEA, and ATF.

        3 The OIG can pursue an allegation either criminally or administratively. Many OIG

investigations begin with allegations of criminal activity but, as is the case for any law
enforcement agency, do not end in prosecution. When this occurs, the OIG is able to continue
the investigation and treat the matter as a case for potential administrative discipline. The
OIG’s ability to handle matters criminally or administratively helps to ensure that a matter can
be pursued administratively even if a prosecutor declines to prosecute a matter criminally.


Office of the Inspector General, U.S. Department of Justice                          Page 3
mistreatment by airport security staff or by the Border Patrol are sent to the
Department of Homeland Security (DHS) OIG. We also have forwarded
complaints to the OIGs of the Departments of Defense, Education, and
Veterans’ Affairs. In addition, we have referred complainants to state
Departments of Correction that have jurisdiction over the subject of the
complaints. Allegations that relate to the authority of a DOJ attorney to
litigate, investigate, or provide legal advice are referred to the DOJ Office of
Professional Responsibility.

       When an allegation received from any source involves a potential
violation of federal civil rights statutes by a DOJ employee, we discuss the
complaint with the DOJ Civil Rights Division for possible prosecution. In some
cases, the Civil Rights Division accepts the case and requests additional
investigation by either the OIG or the FBI. In other cases, the Civil Rights
Division declines prosecution and either the OIG or the appropriate DOJ
internal affairs office reviews the case for possible administrative misconduct.
In addition, we notify the DOJ Civil Rights Division of complaints alleging
violations of federal civil rights statutes by state and local law enforcement or
government officials.

      A. Complaints Processed This Reporting Period

       From July 1, 2010, through December 31, 2010, the period covered by
this report, the OIG processed 1,293 new civil rights or civil liberties
complaints. 4

       Of these complaints, we concluded that 1,072 did not fall within the
OIG’s jurisdiction or did not warrant further investigation. The vast majority
(1,030) of these complaints involved allegations against agencies or entities
outside the DOJ, including other federal agencies, local governments, or private
businesses. When possible, we referred those complaints to the appropriate
entity or advised complainants of the entity with jurisdiction over their
allegations. Some complaints (42) raised allegations that were not suitable for
investigation by the OIG and could not be referred to another agency, generally
because no subject or agency was identified within the complaint.

      We found that 221 of the 1,293 total complaints involved DOJ employees
or DOJ components and included allegations that required further review. The
OIG initiated an investigation of 2 of these complaints. We determined that
203 of these complaints raised management issues that generally were not
related to the OIG’s Section 1001 duties, and we referred these complaints to
DOJ components for appropriate handling. Examples of complaints in this

     4   These complaints include all matters in which the complainant made any mention of a
civil rights or civil liberties violation, even if the allegation was not within the OIG’s jurisdiction.




Office of the Inspector General, U.S. Department of Justice                                Page 4
category included inmates’ allegations about the general conditions at federal
prisons, or complaints that the FBI did not initiate an investigation into
particular allegations.

       The OIG identified 16 complaints as matters that we believed warranted
an investigation to determine if Section 1001-related abuse occurred, and we
referred these matters to the BOP for investigation. We discuss the substance
of these 16 complaints in the next section of this report.

       None of the complaints we processed during this reporting period
specifically alleged misconduct by DOJ employees relating to use of a provision
in the Patriot Act.

      The following is a synopsis of the new complaints processed during this
reporting period involving DOJ employees or components and that included
allegations requiring further review:

      Complaints processed:                        1,293

      Unrelated complaints:                        1,072

      Total complaints within OIG’s
      jurisdiction warranting review:                221

      OIG investigation:                                2

      Management issues:                             203

      Possible Section 1001 matters
      warranting investigation:                        16

    B. Section 1001 Cases This Reporting Period

      1. New matters

      As noted above, during this reporting period the OIG opened two new
Section 1001 investigations. Additionally, the OIG referred 16 Section 1001-
related complaints to the BOP for investigation.

  The following is a summary of the two new matters opened by the OIG
during this reporting period:

      •   A BOP inmate alleged that a correctional officer showed bias against
          him because the inmate was no longer Muslim. The inmate alleged
          that the correctional officer called him a “hypocrite” and a “snitch.”
          The inmate further alleged that the same correctional officer


Office of the Inspector General, U.S. Department of Justice             Page 5
          threatened his life and threatened to harm his family, and that the
          BOP staff tampered with his property. The OIG’s investigation of this
          matter is ongoing.

      •   A Muslim inmate alleged that a BOP correctional officer disposed of
          his Koran and personal letters in the trash, then lied in an incident
          report by stating that the inmate’s Koran and personal letters were
          confiscated and given to sheriff’s deputy escorts for disposition. A
          search of the trash by BOP officials confirmed that the Koran and
          letters had been thrown away and not given to the deputies as stated
          in the incident report. The OIG’s investigation of this matter is
          ongoing.

   The following 16 complaints were referred by the OIG to the BOP for
investigation during this reporting period. The investigations of three of these
matters were completed during this period and the investigations of 13 of these
matters are continuing. For each of these referrals, we requested that the BOP
provide the OIG with a copy of its investigative report upon completion of the
investigation.

      Completed investigations:

      •   A BOP employee alleged that another BOP employee used racial slurs
          when referring to individuals from Pakistan, Afghanistan, and other
          Middle Eastern countries. When interviewed by BOP investigators,
          the subject denied that he made derogatory comments or ethnic slurs
          about anyone of Middle Eastern descent. Several other BOP
          employees were interviewed and said they had never heard the subject
          make derogatory remarks about such individuals. The BOP
          determined that there was not sufficient evidence to sustain these
          allegations and closed its investigation; no disciplinary action was
          taken. In addition, the same complainant alleged that the same
          subject and two other BOP employees had been using a racially
          derogatory term in referring to black inmates. The complainant
          indicated that two other BOP employees had heard the same subjects
          using the racially derogatory terms; one of these other BOP employees
          corroborated the complainant, and one denied that she had heard the
          subjects use the racially derogatory term. The three subject BOP
          employees denied the complainant’s allegation that they had used a
          derogatory term in referring to black inmates. The BOP interviewed
          several other BOP employees who said they had not heard the
          subjects use the racially derogatory term. The BOP determined that
          there was not sufficient evidence to sustain the allegation and closed
          its investigation. No disciplinary action was taken.




Office of the Inspector General, U.S. Department of Justice           Page 6
      •   A Muslim inmate alleged that a BOP correctional officer told the
          inmate that he had killed hundreds of Muslims and would love to kill
          complainant, too. The inmate alleged that when he initially tried to
          report the correctional officer’s alleged statements, he was threatened
          by another correctional officer. The BOP interviewed the correctional
          officers and both denied complainant’s allegations. Two other BOP
          employees were interviewed and said they had not heard either
          subject make threatening or derogatory comments to the inmate. The
          BOP determined that there was not sufficient evidence to substantiate
          the allegations and closed its investigation.

      •   A BOP employee reported receiving a racially inflammatory e-mail
          from another BOP employee. BOP determined that one employee had
          received the e-mail from another employee and forwarded it to several
          staff, including the complainant. Both BOP employees admitted to
          sending the offending e-mail and acknowledged that the racially
          inflammatory statement in the message was inappropriate for the
          workplace. Disciplinary action is pending.

      Continuing investigations:

      •   A Muslim inmate alleged that during a Muslim holiday meal, a BOP
          correctional officer shouted at the Muslim inmate in a “caustic tone”
          to intentionally disturb the holiday meal. The inmate alleged that this
          correctional officer often interrupted and harassed Muslim inmates as
          they worshipped and celebrated their faith. The inmate further
          alleged that the inmates have requested that BOP transfer this
          correctional officer. According to the inmate, the BOP allows the
          correctional officer to continue the harassment and intimidation of
          Muslim inmates in their religious activities.

      •   A Muslim inmate alleged that several Muslim inmates were issued
          incident reports by BOP correctional officers for participating in an
          unauthorized prayer meeting. The inmate alleged further that the
          incident reports were expunged when videotape showed that the
          alleged misconduct was fabricated. The complainant alleged that
          approximately one month later, he was issued another incident report
          by one of the correctional officers involved in making the prior
          fabricated report. The complainant alleged that this second incident
          report also contained fabricated information.

      •   A Muslim inmate alleged that he was fired from his job at the BOP
          commissary without explanation. The inmate submitted an
          administrative remedy request and was informed that he was fired
          because he allegedly abused prison rules relating to the use of the
          commissary. The complainant stated that the allegation against him


Office of the Inspector General, U.S. Department of Justice            Page 7
          was false and was a pretext for discrimination against him because he
          is Muslim.

      •   A Muslim inmate alleged that a BOP staff member touched him
          inappropriately during pat searches. The Muslim inmate also alleged
          that his assigned correctional counselor has jeopardized his safety by
          disclosing to other inmates that he is a convicted sex offender.
          Further, the inmate alleged that he was denied his right to keep
          religious property and practice his Islamic faith.

      •   A Muslim inmate alleged that two BOP chaplains discriminated
          against Muslim inmates by restricting the Muslim community’s
          religious services and not offering Muslims the same programs offered
          to Christian inmates.

      •   A Muslim inmate alleged that a BOP chaplain locked Muslim inmates
          in a room for prayers because he did not like them standing in the
          hallway outside his office. The complainant also alleged that the
          chaplain told other inmates that the Muslims love to read their Koran,
          but they always want to blow up something.

      •   A Muslim inmate alleged that the BOP chaplain who oversaw religious
          services at a BOP facility openly showed his “dislike, hatred, and
          discrimination” toward Muslim inmates, and that the chaplain’s
          actions were being ignored by BOP officials.

      •   A Muslim inmate alleged that a BOP cook supervisor prevented
          Muslim inmates from observing the Muslim ceremonial meal, Eid
          Fitrah, because she would not allow the inmates to take food from the
          dining hall to their housing units. The inmate further alleged that the
          cook supervisor falsely accused him of inciting a riot.

      •   A Muslim inmate alleged that a BOP correctional officer sprayed him
          with chemical agents even though he knew the inmate suffered from
          chronic asthma. The inmate also alleged that he was restrained by
          his ankles and hands, and left in an empty room without a toilet,
          sink, shower, bed, food, or water for two days. Further, the inmate
          alleged that a BOP correctional officer told him he hated Muslims,
          forbade him from practicing his religion, and told him if he was
          hungry that he had a pork chop sandwich for him. A BOP incident
          report indicated that the inmate refused to submit to restraints, and a
          team was required to extract the inmate from his cell. The inmate
          was medically assessed in the holding cell and received new clothing.

      •   A Muslim inmate alleged that a BOP correctional officer deliberately
          mocked the Islamic prayer in a loud voice to provoke Muslim inmates


Office of the Inspector General, U.S. Department of Justice            Page 8
          and show disrespect for their faith. The inmate also alleged that the
          correctional officer repeatedly made racially biased and other
          inappropriate comments about Muslims.

      •   A Muslim inmate alleged that during Ramadan, BOP staff poisoned
          his and other Muslim inmates’ food. The inmate alleged that he
          experienced stomach pain and vomiting as a result of the food
          poisoning, but did not receive adequate medical care.

      •   A Muslim inmate alleged that a BOP correctional officer discriminated
          against him because of his religious beliefs by spitting in his food and
          denying him recreation time. The inmate alleged that the correctional
          officer told another that he despised all Muslims. The inmate alleged
          that he reported the alleged discrimination within the facility, but no
          action was taken.

      •   A Muslim inmate alleged that he was physically and mentally tortured
          for no reason, was provided meals containing pork products contrary
          to his religious diet, and was placed in the Special Housing Unit (SHU)
          for no reason.

      2. Continuing OIG investigations and cases referred to BOP during
         previous reporting periods that the OIG continues to monitor

     The following is a summary of two ongoing OIG investigations that were
opened during a prior reporting period:

      •   The OIG is investigating a Muslim inmate’s allegations that two BOP
          staff members told him that they and others hated him because he is
          Arab and Muslim, and that they made crude statements to him
          relating to his religious articles. The inmate alleged further that BOP
          correctional officers directed other inmates to attack him and that he
          did not receive timely medical treatment for injuries resulting from the
          assault. In addition, the inmate alleged that several prison officials
          threatened him in an effort to force him to withdraw these complaints.
          Other allegations made by the inmate include that his mail was
          withheld from him and that he was denied a transfer to another
          facility.

      •   A Muslim inmate alleged that he had been assaulted by BOP and
          USMS staff during his transfer of custody. The inmate alleged that a
          BOP employee removed his kufi from his head in a “violent manner”
          while he was being taken out of a transport van. The inmate further
          alleged that the BOP employee pushed him causing him to fall to the
          ground, and the BOP and USMS employees then dragged him on the



Office of the Inspector General, U.S. Department of Justice             Page 9
          ground while he was shackled. A medical assessment of the inmate
          found abrasions to his head, left shoulder, knees, and ankles.

      The OIG referred the following three complaints to the BOP for
investigation during a prior reporting period. The investigations of these three
matters continue. For each of these referrals, we requested that the BOP
provide the OIG with a copy of its investigative report upon completion of the
investigation.

      •   A Muslim inmate alleged that a BOP chaplain attempted to deny
          Sunni Muslim inmates the right to pray in the prison chapel, issued a
          memorandum stating when Sunni Muslim inmates could pray,
          repeatedly showed her dislike of Sunni Muslim inmates, and used her
          official position to oppress Sunni Muslim inmates.

      •   A BOP employee alleged that an inmate told him that BOP staff
          directed him to stop helping Islamic inmates, “because we don’t help
          terrorists.”

      •   An inmate who is originally from Pakistan alleged that he had been
          discriminated against by BOP employees because of his race and
          religion. The inmate alleged that he has been transferred several
          times and unfairly placed in the SHU, where he was harassed by
          correctional officers, did not receive timely medical treatment, had his
          legal documents confiscated, and was forced to sleep on dirty bed
          linens.

      3. Previously opened investigations that were closed during this
         reporting period

      The BOP completed investigations of five Section 1001-related matters
during this reporting period that had been referred by the OIG in prior periods.
For each of these referrals, we requested that the BOP provide the OIG with a
copy of its investigative report.

      •   A Muslim inmate alleged that a BOP chaplain denied him and a visitor
          access to religious meals and prevented Muslims from obeying Islamic
          injunctions by forcing them to throw away food on a holy day. The
          inmate also alleged that the chaplain gave preferential treatment to
          Jews and Christians. BOP interviewed the chaplain who stated that
          at the time of the incident, the inmate was not registered as Muslim,
          and neither he nor a visitor could attend the meal as guests because
          under regulations at the facility, the only guests allowed were the
          inmate assigned to take photos and a pre-cleared volunteer of the
          Muslim faith. The chaplain stated that he treated inmates of all
          religious faiths the same. One inmate interviewed by the BOP


Office of the Inspector General, U.S. Department of Justice             Page 10
          acknowledged that he was not on the list for the meal and stated that
          he did not think the chaplain discriminated against him or the
          Muslim inmate population. The BOP concluded that complainant’s
          allegations were unsubstantiated.

      •   A Muslim inmate alleged that two BOP chaplains exhibited a pattern
          of incompetence and bias when dealing with Muslim inmates and
          Islamic issues. The inmate alleged that the chaplains issued
          memoranda restricting the duration and location of daily Muslim
          prayers, and the size of prayer groups. The inmate also alleged that
          BOP staff monitored Muslim religious services and classes in a
          restrictive manner. BOP’s investigation did not develop evidence that
          the chaplains acted inappropriately toward the Muslim inmate
          population. Unrelated to these allegations, one of the chaplains,
          stated that he was upset by an anonymous note that accused him of
          using intimidation and threats when dealing with inmates. The
          chaplain said that he posted a reply that stated, “Come see the
          abusive intimidating chaplain. For your viewing pleasure, left
          anonymously, Full of Drama.” Disciplinary action is pending against
          this chaplain as the BOP characterized the posting of the note and its
          comments as unprofessional conduct.

      •   A Muslim inmate alleged that a BOP correctional officer ordered him
          to remove his religious headwear when he entered the food service
          area. The inmate said that when he told the correctional officer that
          policy permitted him to wear the religious headwear in the food
          service area, the correctional officer ordered that the inmate be taken
          to the SHU. The inmate also alleged that when he was released from
          the SHU later that day, he was taken to the correctional officer’s
          office, where the correctional officer “assaulted” him with profanity.
          The inmate further alleged that the correctional officer lied on an
          official record in response to the inmate’s complaint. The BOP
          interviewed the correctional officer, and he denied that he used
          profanity. The correctional officer stated that he had instructed the
          inmate to remove unauthorized headgear, but the inmate refused his
          order and was escorted to the SHU. The inmate was released from
          the SHU later that evening, and the unauthorized headgear was
          confiscated. The BOP concluded there was not sufficient evidence to
          substantiate the allegations.

      •   A Muslim inmate alleged that a BOP staff member removed personal
          items from his display board and threw them away. According to the
          complainant, when the inmate questioned the correctional officer
          about the items, the correctional officer told him that they were gone.
          The inmate reported the matter to a Unit Manager, and he was told
          that nothing could be done. The Unit Manager told BOP investigators


Office of the Inspector General, U.S. Department of Justice             Page 11
          that he approved removal of the religious items from the inmate’s
          bulletin board and said he explained to the inmate that he was not
          authorized to keep religious items on his display board. The
          correctional officer told investigators that he recalled inspecting unit
          cells and removing unauthorized items from inmates’ display boards,
          but stated that he never removed items from the cells. Complainant
          was unable to identify to BOP investigators or any inmate witnesses to
          substantiate his allegations, and no evidence was found that showed
          abuse of the inmate’s property or retaliation against the inmate on
          religious or other grounds. The BOP concluded there was not
          sufficient evidence to substantiate the allegations.

      •   An inmate alleged that when he asked the BOP facility’s chaplain to
          order religious materials for the Muslim community, the chaplain told
          him that there was no money in the budget for such items. The
          inmate alleged that when he sent an e-mail to the associate warden
          requesting a copy of the religious services budget, he was accused of
          sending a threatening e-mail and advised that he could be placed in
          solitary confinement or transferred to a different facility for sending
          such a message. When interviewed by BOP investigators, the
          associate warden and chaplain denied the allegations. The chaplain
          stated that the inmate was not told that there were insufficient funds
          to purchase Muslim religious materials. The associate warden denied
          making any statement about solitary confinement or being
          transferred. The chaplain said that the inmate may have been told
          that the requested items could not be purchased until the beginning
          of the new fiscal year. The chaplain stated that when he received the
          new budget, he was able to purchase some of the items requested by
          Muslim inmates. The inmate acknowledged that the facility’s religious
          services department eventually purchased some of the items he
          requested. The BOP concluded there was not sufficient evidence to
          substantiate the allegations.

IV. OTHER ACTIVITIES RELATED TO POTENTIAL CIVIL RIGHTS
    AND CIVIL LIBERTIES ISSUES

       The OIG conducts other reviews that go beyond the explicit requirements
of Section 1001 in order to implement more fully its civil rights and civil
liberties oversight responsibilities. The OIG has completed or is conducting
several such reviews that relate to the OIG’s duties under Section 1001. These
reviews are discussed in this section of the report.




Office of the Inspector General, U.S. Department of Justice             Page 12
      A.   Review of the FBI’s Investigation of Certain Domestic Advocacy
           Groups

      In September 2010, the OIG issued a report examining the FBI’s
investigative activity relating to five domestic advocacy groups and one
individual. The OIG initiated this review in response to congressional inquiries
that raised concerns over whether the FBI had improperly targeted domestic
advocacy groups for investigation based upon their exercise of First
Amendment rights. The OIG review examined FBI investigative activity
between 2001 and 2006 related to: (1) the Thomas Merton Center (a “peace
and social justice center” in Pittsburgh); (2) People for the Ethical Treatment of
Animals (PETA); (3) Greenpeace USA; (4) The Catholic Worker (a pacifist
organization with numerous local chapters); and (5) Glen Milner, an individual
described as a Quaker peace activist.

       The OIG review did not find that the FBI had targeted any of the groups
for investigation on the basis of their First Amendment activities. However, we
concluded that the predication for opening some of the investigations of
individuals affiliated with the groups was factually weak, and in several cases,
there was little indication of any possible federal crimes (as opposed to state
crimes). In some cases, the FBI extended the duration of investigations
involving advocacy groups or their members without adequate basis, and in a
few instances, the FBI improperly retained information about the groups in its
files. The FBI also classified some investigations relating to nonviolent civil
disobedience under its “Acts of Terrorism” classification, which resulted in the
watchlisting of subjects during the investigation.

       In addition, in the course of our investigation, the OIG found that
because of inaccurate information provided to the FBI Director regarding the
circumstances of the FBI’s surveillance of an anti-war rally in Pittsburgh in
2002, the Director unintentionally provided inaccurate testimony to Congress
in May 2006. The Director, in reliance on the information provided to him by
FBI personnel, testified that certain persons of interest in international
terrorism matters were expected to be present at the rally, when in fact this
was not the case.

      The OIG report contained six recommendations, including that the FBI
should specify the potential violation of a specific federal criminal statute as
part of documenting the basis for opening a preliminary or full investigation in
cases involving investigation of advocacy groups or their members for activities
connected to the exercise of their First Amendment rights, and that the
Department and the FBI should provide further guidance on whether or not
cases involving First Amendment issues should be classified as “Acts of
Terrorism” matters. The FBI concurred with these recommendations.




Office of the Inspector General, U.S. Department of Justice             Page 13
      B. Review of the FBI’s Activities Under Section 702 of the Foreign
         Intelligence Surveillance Act Amendments Act of 2008

        Section 702 of the Foreign Intelligence Surveillance Act (FISA)
Amendments Act of 2008 (Act) authorizes targeting non-U.S. persons
reasonably believed to be outside the United States to acquire foreign
intelligence information. As required by the Act, the OIG is examining the
number of disseminated FBI intelligence reports containing a reference to a
U.S. person identity, the number of U.S. person identities subsequently
disseminated in response to requests for identities not referred to by name or
title in the original reporting, the number of targets later determined to be
located in the United States, and whether communications of such targets were
reviewed. In addition, the OIG is reviewing the FBI’s compliance with the
targeting and minimization procedures required under the Act.

      C.   Review of the Department’s Use of Material Witness Warrants

       The OIG is reviewing the Department’s use of the material witness
warrant statute, 18 U.S.C. 3144. Pursuant to the OIG’s responsibility under
Section 1001 of the Patriot Act, the review is addressing allegations of civil
rights and civil liberties abuses in the Department’s post-9/11 use of the
statute in the national security context. The review is also examining the
Department’s controls over the use of material witness warrants, trends in the
use of material witness warrants over time, and the Department’s treatment of
material witnesses in national security cases, including issues such as length
of detention, conditions of confinement, and access to counsel.

      D.   Review of the FBI’s Use of National Security Letters and Section
           215 Orders from 2007 through 2009

       The OIG is again examining the FBI’s use of national security letters
(NSLs) and Section 215 orders for business records. Among other issues, our
review is assessing the FBI’s progress in responding to the OIG’s
recommendations in prior OIG reports that examined the FBI’s use of these
authorities. Our review will also evaluate the automated system the FBI
implemented to generate and track NSLs in response to the deficiencies
identified in our prior reports, the number of NSLs issued and 215 applications
filed by the FBI from 2007 through 2009, and any improper or illegal uses of
these authorities. In addition, the review is examining the FBI’s use of its pen
register, and trap and trace authority under FISA.

      E.   Audit of the FBI’s Management of Terrorist Watchlist
           Nominations and Encounters with Watchlisted Subjects

       The OIG is conducting another audit of the FBI’s management of
terrorist watchlist nominations and encounters with watchlisted subjects.


Office of the Inspector General, U.S. Department of Justice           Page 14
In fiscal years 2008 and 2009, the OIG conducted two audits related to the
FBI terrorist watchlist nomination practices. In these audits, the OIG
found that the FBI’s procedures for processing international terrorist
nominations were, at times, inconsistent and insufficient, causing watchlist
data used by screening agencies to be incomplete and outdated. The OIG
found that the FBI failed to nominate for watchlisting many subjects of its
terrorism investigations, did not nominate many others in a timely manner,
and did not update or remove watchlist records as required. As a result of
these reviews, the FBI reported that it had undertaken several initiatives
and implemented new processes and guidelines to enhance its watchlisting
system.

       The objectives of the OIG’s ongoing audit are to : (1) assess the
impact of recent events on the FBI’s watchlisting system; (2) evaluate the
effectiveness of the initiatives recently implemented by the FBI to ensure
the accuracy, timeliness, and completeness of the FBI’s watchlisting
practices, including watchlist nominations, modifications, and removals;
and (3) determine whether the FBI is appropriately managing terrorist-
related information obtained through the encounter process.

      F.   Audit of the Office of the Federal Detention Trustee’s Efforts for
           Ensuring Safe and Secure Non-Federal Detention Facilities

        The OIG is conducting an audit of the Office of the Federal Detention
Trustee’s (OFDT) efforts for ensuring safe and secure non-federal detention
facilities. OFDT manages and regulates federal detention programs and
conducts performance reviews, including on-site inspections, of selected non-
federal detention facilities. According to a recent Bureau of Justice Statistics
report, between 2006 and 2010, the number of federal detainees housed in
non-federal detention facilities increased from 43,563 to 48,191. This audit
seeks to determine whether the OFDT’s oversight efforts ensure a safe, secure,
and humane environment for federal detainees held in these non-federal
detention facilities.

V. EXPENSE OF IMPLEMENTING SECTION 1001

      Section 1001 requires the OIG to:

      Submit to the Committee on the Judiciary of the House of Representatives
      and the Committee on the Judiciary of the Senate on a semi-annual basis
      a report…including a description of the use of funds appropriations used to
      carry out this subsection.

      During this reporting period, the OIG spent approximately $1,136,564 in
personnel costs, $35 in travel costs (for investigators to conduct interviews),
and $757 in miscellaneous costs, for a total of $1,137,356 to implement its


Office of the Inspector General, U.S. Department of Justice            Page 15
responsibilities under Section 1001. The total personnel and travel costs
reflect the time and funds spent by OIG special agents, inspectors, and
attorneys who have worked directly on investigating Section 1001-related
complaints, conducting special reviews, and implementing the OIG’s
responsibilities under Section 1001.




Office of the Inspector General, U.S. Department of Justice           Page 16
